           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION


       THE SOCIAL SECURITY
    ADMINISTRATION’S CONTROLS
      AND PROCEDURES OVER
     SUPPLEMENTAL SECURITY
      INCOME DEATH ALERTS

    May 2007        A-09-06-16128




 AUDIT REPORT
                                    Mission
By conducting independent and objective audits, evaluations and investigations,
we inspire public confidence in the integrity and security of SSA’s programs and
operations and protect them against fraud, waste and abuse. We provide timely,
useful and reliable information and advice to Administration officials, Congress
and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
We strive for continual improvement in SSA’s programs, operations and
management by proactively seeking new ways to prevent and deter fraud, waste
and abuse. We commit to integrity and excellence by supporting an environment
that provides a valuable public service while encouraging employee development
and retention and fostering diversity and innovation.
                                             SOCIAL SECURITY
MEMORANDUM

Date:      May 31, 2007                                                       Refer To:

To:        The Commissioner

From:      Inspector General

Subject:   The Social Security Administration’s Controls and Procedures over Supplemental
           Security Income Death Alerts (A-09-06-16128)


           OBJECTIVE

           Our objective was to evaluate the effectiveness of the Social Security Administration’s
           (SSA) controls and procedures for resolving Supplemental Security Income (SSI) death
           alerts and the recovery of improper payments made after a recipient’s death. We also
           evaluated the timeliness of electronic death registration (EDR) and reporting by State
           agencies.

           BACKGROUND
           The SSI program provides payments to financially needy individuals who are aged,
           blind, and/or disabled. In Fiscal Year 2006, the SSI program provided $35.2 billion in
           cash payments to 7.2 million recipients. Approximately 204,000 1 SSI recipients die
           each year. SSA receives death reports from a variety of sources, including friends and
           relatives of deceased individuals, funeral homes, postal authorities, and financial
           institutions. Friends, relatives, and funeral homes report about 90 percent of deaths.
           Postal authorities and financial institutions report another 5 percent of deaths. SSA
           relies on computer matches with Federal and State agencies to identify the remaining
           5 percent of deaths.

           Death Alert, Control, and Update System

           The Death Alert, Control, and Update System (DACUS) identifies payments to
           deceased individuals by computer matches with death data from Federal and State
           agencies (for example, the Department of Veterans Affairs, the Centers for Medicare
           and Medicaid Services [CMS], and State bureaus of vital statistics [BVS]). DACUS also
           produces a national file of death information, called the Death Master File. DACUS
           compares death reports to death information on SSA’s payment records. If payments
           were made after an individual’s death or if there is conflicting death information,

           1
               2006 Annual SSI Report, Table IV.B6.
Page 2 - The Commissioner

DACUS generates an alert to the local field office (FO) or processing center for action.
DACUS also generates follow-up alerts every 30 days and monthly reports of death
alerts over 120 days for the regional offices’ review. SSA’s procedures require that FOs
give prompt attention to death alerts to minimize and prevent incorrect payments. 2

Electronic Death Registration

In September 1999, SSA contracted with the National Association for Public Health
Statistics and Information Systems, an association of State vital records directors and
registrars, to develop standards and guidelines for a nation-wide system of EDR.
Under EDR, States verify Social Security numbers with SSA at the beginning of the
death registration process. This consequently allows SSA to take immediate action to
terminate payments upon receipt of a death report without independently verifying the
report’s accuracy. EDR should enable SSA to receive more timely and accurate death
reports resulting in potentially significant program and administrative savings. To
achieve these savings, SSA has the following goals.

    States with EDR should provide death reports to SSA within 5 days of the
     individual’s death and 24 hours of receipt in the State BVS or a total of 6 days.

    EDR will be implemented in 90 percent of the States.

To encourage the development of EDR, SSA has contracts with 31 States to partially
                                                                                 3
fund their EDR systems. As of November 1, 2006, 16 BVSs had implemented EDR
and 15 more BVSs plan to implement EDR by October 2008.




2
    SSA, POMS, GN 02602.065 (C).
3
 California, District of Columbia, Hawaii, Minnesota, Montana, Nebraska, New Hampshire, New Jersey,
New Mexico, New York City, Nevada, South Carolina, South Dakota, Texas, Utah, Washington.
Page 3 - The Commissioner

RESULTS OF REVIEW
Based on our review of a random sample of 250 4 death alerts, we estimate that SSA
disbursed approximately $15.5 million in payments after death. SSA was generally
effective in resolving SSI death alerts; however, it needed to improve its efforts to
recover improper payments made after a recipient’s death. Specifically, SSA

     delayed in processing death alerts, which resulted in approximately $584,000
      (3.8 percent of the $15.5 million) in payments after death to 1,241 SSI recipients
      and
     did not always take proper action to ensure it recovered about $2.4 million
      (15.5 percent of the $15.5 million) in payments after death for 2,836 SSI recipients.

We also found that SSA needed to continue to work with the States to increase their
use of EDR and improve their timeliness of EDR reporting.

     EDR was implemented in 16 (30 percent) of the 53 BVSs. 5 SSA’s goal is to
      implement EDR in 90 percent of the BVSs.

     The 10 BVSs that had been providing EDR reports to SSA for at least 1 year
      reported 61 percent of their deaths through EDR and provided 40 percent of their
      EDR-reported deaths to SSA within 6 days.

Finally, we estimate that a nation-wide EDR will annually prevent $13.8 million in
incorrect payments made after the deaths of SSI recipients (see Appendix C).

SOCIAL SECURITY ADMINISTRATION PROCESSING OF SUPPLEMENTAL
SECURITY INCOME DEATH ALERTS

Generally, a death alert should be resolved within 30 days before a follow-up alert is
generated. Specifically, FOs must attempt a telephone call to the recipient’s address.
If the telephone contact is unsuccessful, the FO should mail a come-in letter to request
a face-to-face interview. If the recipient does not respond to the come-in letter within
15 days, the FO should attempt to make contact by telephone, visiting the recipient’s
home, and sending a follow-up letter. If the recipient does not respond to the follow-up
letter within 10 days, the FO should suspend payments.




4
 From a population of 14,773 alerts generated from March 2004 through February 2005, we randomly
selected 250 sample items.
5
    The 53 BVSs include the 50 States, District of Columbia, New York City, and Puerto Rico.
Page 4 - The Commissioner

Of the 250 death alerts in our sample, SSA did not take prompt action to resolve
22 alerts within 30 days. The average amount of time required to resolve these
22 alerts was 109 6 days. Of the 22 alerts, 17 required more than 60 days to resolve
and 5 more than 90 days. One alert was not resolved for 654 days. As a result, these
individuals received $22,266 in payments to which they were not entitled. Projecting
our results to the population of 14,773 death alerts, we estimate that SSA disbursed
incorrect payments of approximately $584,000 to 1,241 deceased recipients over
30 days after death alerts were generated (see Appendix C). 7

Our review disclosed that FOs did not always ensure death alerts were resolved timely
and consistently. For example, in one FO, the responsibility for resolving death alerts
was not reassigned to another employee when an employee responsible for alert
resolution was temporarily transferred to another position. As a result, the FO had
16 death alerts aged over 60 days and 15 alerts aged over 90 days. In another FO,
management did not ensure the staff resolved all death alerts. This office had
three death alerts aged over 60 days and one alert aged over 90 days.

UNRECOVERED PAYMENTS AFTER DEATH

Payments made after an SSI recipient’s death are incorrect payments and are not
                                                                               8
overpayments subject to SSA’s normal overpayment recovery procedures. Thus, an
individual who endorses incorrect payments or withdraws funds from a deceased
recipient’s account is not entitled to reconsideration or waiver of the incorrect payments.
Accordingly, the recovery of incorrect payments after death is initially the responsibility
of the Department of the Treasury (Treasury). However, Treasury only has the
authority to reclaim incorrect check payments for the past 12 months. Similarly, for
electronic funds transfers, Treasury and the financial organization that received the
payments are responsible for recouping the incorrect payments. However, the financial
organization is only responsible for amounts paid within 45 days after the recipient’s
death and any amount remaining in the account up to the amount owed. SSA is then
responsible for the recovery of any incorrect payments outside of the Treasury’s
reclamation period. 9




6
    The median was 77 days.
7
  We excluded from our projection the alert that was not resolved for 654 days. This alert accounted for
$12,375 of the $22,266 (55.6 percent) in payments after death and as such, is an outlier (that is, unusually
large compared to the other errors).
8
    Exception: Payments issued to a representative payee after the recipient’s death are overpayments.
9
    SSA, POMS GN 02401.917 C.1.
Page 5 - The Commissioner

Of the 250 cases in our sample, SSA disbursed $262,232 to 228 SSI recipients after
their deaths. Of this, SSA had not recovered $40,684 (15.5 percent) from 48 recipients.
Projecting these results to our population of 14,773 death alerts, we estimate that SSA
had not recovered about $2.4 million in payments to 2,836 recipients (see Appendix C).
We found that SSA did not always recover these payments because FO staff did not
take the proper actions to ensure payments made after death were recovered.
Specifically, we found that FO staff often did not initiate collection activity when
Treasury was unable to reclaim the payments from the financial institutions.

For example, a recipient who died in September 2004 received 5 months of incorrect
payments totaling $2,850 before SSA terminated payments in March 2005. Treasury
reclaimed and returned the last month’s payment of $579; however, SSA determined
the remaining $2,271 was uncollectible and terminated collection. In addition, the FO
improperly recorded the uncollectible amount as two separate overpayments, thereby
circumventing the requirement to obtain management approval for uncollectible debts
             10
over $2,000.

STATES’ USE OF AND TIMELINESS OF ELECTRONIC DEATH REGISTRATION
REPORTING

SSA expects EDR, when fully implemented, to produce more timely and accurate death
reports that will result in significant program and administrative savings to SSA. To
achieve the potential savings, SSA has established the following goals.

     States with EDR should provide death reports to SSA within 5 days of the
      individual’s death and 24 hours of receipt in the State BVS or a total of 6 days.

     EDR will be implemented in 90 percent of the States.

To encourage the development of EDR, SSA has contracts with 31 States to partially
fund their EDR systems. In addition, the Intelligence Reform and Terrorism Prevention
Act of 2004 granted the Secretary of Health and Human Services (HHS), in
                                                           11
coordination with SSA, the authority to fund EDR systems. Consequently, starting in
FY 2007, SSA will no longer provide funding for the implementation of future EDR
systems. As of the date of our review, 16 BVSs had implemented EDR.




10
     SSA, POMS SI 02220.005.

11
    P.L. No. 108-408, §7211(c)(2)(A), 118 Stat. 3638, 3825 (2004).
Page 6 - The Commissioner

To realize the potential savings of EDR, we found that some States need to increase
the number of EDR reported deaths. To assess the frequency of EDR reporting, we
reviewed the 10 BVSs that had been providing EDR reports to SSA for at least 1 year.
For Calendar Year 2006, we found that seven BVSs reported 79 percent or more of
their deaths by EDR (Hawaii, Minnesota, Montana, New Hampshire, South Carolina,
South Dakota, and Texas); however, the three BVSs (California, Washington and
Washington D.C.) that represented 52 percent of the deaths reported 45 percent or less
of their deaths through EDR. Overall, the 10 BVSs reported 61 percent of their deaths
through EDR. The following graph shows the percentage of total deaths reported
through EDR by the 10 BVSs.


                          Percent of Deaths Reported by EDR

     100%



     80%



     60%



     40%



     20%



       0%
             CA     DC     HI     MN     MT     NH     SC     SD       TX          WA

                                BVS EDR Reporting Entities

                                                                   Calendar Year 2006




To assess the timeliness of the EDR reporting to SSA, we reviewed the EDR reports
submitted by the 10 BVSs in Calendar Year 2006 and found that Minnesota and New
Hampshire were generally meeting the goal of providing EDR reports to SSA within 6
days. South Dakota provided 88.5 percent of its EDR reports within 6 days. The
remaining seven BVSs were not meeting the 6-day goal, and, in some instances,
(California, Washington D.C., and Texas) were substantially below the goal. Overall,
the 10 BVSs provided 40 percent of their EDR-reported deaths to SSA within 6 days.
The following graph shows the percentage of EDR reports provided to SSA within 6
days by the 10 BVSs.
Page 7 - The Commissioner


                          Percent of EDR Reports Provided to SSA Within 6 Days

     100%


      80%



      60%



      40%



      20%



        0%
                CA        DC         HI        MN        MT        NH      SC   SD   TX   WA
                                                  BVS Reporting Entities
   Note: Washington D.C. did not report any deaths by EDR within 6 days.




Although SSA has provided partial funding and technical support for EDR systems,
successful implementation is also dependent upon the States’ commitment and ability
to realize the goals of EDR. Therefore, SSA should continue its efforts to encourage
States to report a higher percentage of their deaths through EDR and to report these
deaths within 6 days. Otherwise, the potential savings from a nation-wide EDR will not
be realized. In Calendar Year 2006, 17.7 percent of the 2.2 million deaths were
reported to SSA through EDR. In addition, 7.5 percent were EDR reports that were
provided to SSA within 6 days.

To assess the potential benefits of EDR for the SSI program, we analyzed our sample
of 250 SSI death alerts to determine the amount of SSI payments after death that EDR
could have prevented. Specifically, of the 250 cases in our sample, 228 individuals
received payments after death totaling $262,232. For these cases, the average time to
terminate payments after death was 87 days. However, if SSA realized its EDR goals,
SSA could have prevented $234,517 of these incorrect payments. Projecting these
results to our population of 14,773 death alerts, we estimate that SSA could have
prevented $13.8 million incorrect payments made after death to 12,173 SSI recipients
(see Appendix C).
Page 8 - The Commissioner

CONCLUSION AND RECOMMENDATIONS
SSA was generally effective in resolving SSI death alerts; however, it needs to improve
its efforts to recover improper payments made after a recipient’s death. We found that,
in some instances, SSA did not always ensure SSI death alerts were resolved timely
and consistently, and SSA did not always take the proper actions to ensure payments
made after death were recovered. We also found that SSA has not fully realized the
potential benefits of EDR. Therefore, we recommend that SSA:

1. Remind FOs to process death alerts as expeditiously as possible to minimize
   improper payments to deceased recipients.

2. Remind FOs to follow up and resolve Treasury reclamation actions to ensure
   payments after death are recovered.

3. Remind FOs to use debt collection tools to recover incorrect payments after death
   that are outside of Treasury’s reclamation authority.

4. Continue to encourage State BVS to develop and implement EDR systems.

5. Continue to work with the HHS to implement and achieve the goals of EDR.

AGENCY COMMENTS
SSA agreed with all our recommendations. See Appendix D for the full text of SSA’s
comments.




                                               Patrick P. O’Carroll, Jr.
                                     Appendices
APPENDIX A – Acronyms
APPENDIX B – Scope and Methodology
APPENDIX C – Sampling Methodology
APPENDIX D – Agency Comments
APPENDIX E – OIG Contacts and Staff Acknowledgments
                                                        Appendix A

Acronyms
BVS        State Bureau of Vital Statistics
CMS        Centers for Medicare and Medicaid Services
DACUS      Death Alert, Control, and Update System
EDR        Electronic Death Registration
FO         Field Office
HHS        Department of Health and Human Services
SSA        Social Security Administration
SSI        Supplemental Security Insurance
Treasury   Department of the Treasury
                                                                        Appendix B

Scope and Methodology
We obtained a file of initial death alerts generated by the Death Alert, Control, and
Update System (DACUS) from March 2004 to February 2005 for Supplemental Security
Income (SSI) recipients. From this file, which contained 14,773 death alerts, we
selected a sample of 250 death alerts for review.

To accomplish our audit objectives, we

•   reviewed the applicable sections of the Social Security Act and the Social Security
    Administration’s (SSA) Programs Operations Manual System;

•   interviewed SSA employees from the Office of Income Security Programs, Office of
    Payment Policy, and Regional Center for Program Support;

•   performed site visits at selected field offices in Region IX and interviewed
    employees responsible for resolving death alerts;

•   obtained electronic copies of initial death alerts generated by DACUS from March
    2004 through February 2005;

•   obtained queries from the Supplemental Security and Master Beneficiary Records
    and Numident file as needed; and

•   reviewed SSA’s electronic death registration (EDR) contracts with selected State
    Bureaus of Vital Statistics.

We verified the information on the death alerts against SSA’s payment records. For
individuals who were deceased, we determined the amount of payments after death
and reviewed the actions SSA took to recover these amounts. In addition, we
determined the amount of payments that were made because of delays in processing
alerts. Finally, we determined the amount of payments that could have been prevented
by a nation-wide EDR.

We determined the computer-processed data were sufficiently reliable to achieve our
audit objectives. We performed our work in Baltimore, Maryland, and Richmond,
California, from May 2006 through February 2007. The entities audited were SSA’s
Offices of Disability and Income Security Programs and Operations. We conducted our
review in accordance with generally accepted government auditing standards.
                                                                                     Appendix C

Sampling Methodology
We obtained electronic copies of the initial death alerts generated by the
Social Security Administration’s (SSA) Death Alert, Control, and Update System from
March 2004 through February 2005. For the recipients who were deceased, we
determined the amount of payments after death and reviewed the actions SSA took to
recover these amounts. In addition, we determined the amount of payments that were
made because of delays in processing alerts. Finally, we determined the amount of
payments that could have been prevented by a nation-wide electronic death registration
(EDR).

Based on a random sample of 250 death alerts from March 2004 through
February 2005, we found that SSA disbursed $262,232 in payments after death. Of
this amount, SSA had not recovered $40,684 as of July 2006. We determined that
                                                                                   1
SSA delays in processing death alerts resulted in $22,266 in payments after death.
Finally, we determined that SSA could have prevented $234,517 in payments after
death if SSA had realized its EDR goal of receiving death reports within 6 days of
death.

Projecting our results to the population of 14,773 death alerts, we estimate that SSA
disbursed $15.5 million in payments after death. Of this amount, we estimate that SSA
had not recovered $2.4 million. In addition, we estimate that SSA delays in processing
death alerts resulted in approximately $584,506 in payments after death. Finally, we
estimate that SSA could have prevented about $13.8 million in payments after death if
SSA had realized its EDR goal of receiving death reports within 6 days of death. The
following tables provide the details of our sampling results and statistical projections.




1
 One alert was not resolved for 654 days and accounted for $12,375 of the $22,266 (55.6 percent) in
payments after death. This is an outlier (that is, unusually large compared to other errors), and therefore
we excluded it from our projection.


                                                    C-1
Table 1 – Incorrect Payments After Death

       Description               Number of Recipients          Payments After Death
Sample                                              228                      $262,232
Point Estimate                                   13,473                  $15,495,871
Lower Limit                                      12,956                  $13,021,173
Upper Limit                                      13,879                  $17,970,569

Table 2 – Incorrect Payments Over 30 Days After Initial Death Alert

        Description              Number of Recipients           Avoidable Payments
Sample                                               21                        $9,891
Point Estimate                                    1,241                      $584,506
Lower Limit                                         844                      $342,330
Upper Limit                                       1,750                      $826,681

Table 3 – Incorrect Payments Not Recovered by SSA

       Description              Number of Recipients           Unrecovered Payments
Sample                                              48                         $40,684
Point Estimate                                   2,836                      $2,404,124
Lower Limit                                      2,248                      $1,590,875
Upper Limit                                      3,506                      $3,217,373

Table 4 – Incorrect Payments EDR Could Prevent

       Description              Number of Recipients           Preventable Payments
Sample                                             206                        $234,487
Point Estimate                                  12,173                     $13,856,352
Lower Limit                                     11,521                     $11,360,659
Upper Limit                                     12,739                     $16,352,045

All results are reported at the 90-percent confidence level.




                                           C-2
                  Appendix D

Agency Comments
                                          SOCIAL SECURITY


MEMORANDUM


Date:      May 18, 2007                                                            Refer To:   S1J-3

To:        Patrick P. O'Carroll, Jr.
           Inspector General

From:      Larry W. Dye /s/


Subject:   Office of the Inspector General (OIG) Draft Report, "The Social Security Administration’s
           Controls and Procedures over Supplemental Security Income Death Alerts" (A-09-06-16128) --
           INFORMATION



           We appreciate OIG’s efforts in conducting this review. Our comments on the recommendations
           are attached.

           Please let me know if we can be of further assistance. Staff inquiries may be directed to
           Candace Skurnik, Director, Audit Management and Liaison Staff, on 410-965-4636.


           Attachment




                                                          D-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL’S (OIG) DRAFT
REPORT, “THE SOCIAL SECURITY ADMINISTRATION’S CONTROLS AND
PROCEDURES OVER SUPPLEMENTAL SECURITY INCOME DEATH ALERTS”
(A-09-06-16128)

Thank you for the opportunity to review and provide comments on this draft report.

Recommendation 1

Remind Field Offices (FOs) to process death alerts as expeditiously as possible to minimize
improper payments to deceased recipients.

Comment

We agree. We will issue an administrative message by the end of May 2007 to remind the FOs
to process death alerts in an expeditious manner.

Recommendation 2

Remind FOs to follow-up and resolve the Department of the Treasury (Treasury) reclamation
actions to ensure payments after death are recovered.

Comment

We agree. We will issue an administrative message by the end of May 2007 to remind the FOs
of the importance of monitoring the reclamation actions and to follow-up promptly.

Recommendation 3

Remind FOs to use debt collection tools to recover incorrect payments after death that are outside
of Treasury’s reclamation authority.

Comment

We agree. We will issue an administrative message by the end of May 2007 to remind the FOs
to follow Program Operations Manual System instructions to pursue the recovery of incorrect
payments after death outside the reclamation period.




                                               D-2
Recommendation 4

Continue to encourage State Bureau of Vital Statistics (BVS) to develop and implement
Electronic Death Registration (EDR) systems.

Comment

We agree. We support National Association for Public Health Statistics and Information
Systems and will continue to work providing higher incentives for EDR records received; based
on the number of days duration, to encourage EDR system rollout.

Recommendation 5

Continue to work with the Department of Health and Human Services (HHS) to implement and
achieve the goals of EDR.

Comment

We agree. We are working with HHS and the Department of Homeland Security under the
Intelligence Reform and Terrorism Protection Act of 2004 to work with the States and assist
them in computerizing their birth and death records.




                                              D-3
                                                                      Appendix E

OIG Contacts and Staff Acknowledgments
OIG Contacts

   James J. Klein, Director, San Francisco Audit Division, (510) 970-1739

   Joe Robleto, Audit Manager, (510) 970-1737


Acknowledgments

In addition to those named above:

   Daniel L. Hoy, Auditor

For additional copies of this report, please visit our web site at
www.socialsecurity.gov/oig or contact the Office of the Inspector General’s Public
Affairs Specialist at (410) 965-3218. Refer to Common Identification Number
A-09-06-16128.
                           DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Subcommittee on Human Resources
Chairman and Ranking Minority Member, Committee on Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Government Reform and
Oversight
Chairman and Ranking Minority Member, Committee on Governmental Affairs
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security and Family
Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
               Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of our Office of Investigations (OI),
Office of Audit (OA), Office of the Chief Counsel to the Inspector General (OCCIG), and Office
of Resource Management (ORM). To ensure compliance with policies and procedures, internal
controls, and professional standards, we also have a comprehensive Professional Responsibility
and Quality Assurance program.
                                         Office of Audit
OA conducts and/or supervises financial and performance audits of the Social Security
Administration’s (SSA) programs and operations and makes recommendations to ensure program
objectives are achieved effectively and efficiently. Financial audits assess whether SSA’s
financial statements fairly present SSA’s financial position, results of operations, and cash flow.
Performance audits review the economy, efficiency, and effectiveness of SSA’s programs and
operations. OA also conducts short-term management and program evaluations and projects on
issues of concern to SSA, Congress, and the general public.


                                    Office of Investigations
OI conducts and coordinates investigative activity related to fraud, waste, abuse, and
mismanagement in SSA programs and operations. This includes wrongdoing by applicants,
beneficiaries, contractors, third parties, or SSA employees performing their official duties. This
office serves as OIG liaison to the Department of Justice on all matters relating to the
investigations of SSA programs and personnel. OI also conducts joint investigations with other
Federal, State, and local law enforcement agencies.


                   Office of the Chief Counsel to the Inspector General
OCCIG provides independent legal advice and counsel to the IG on various matters, including
statutes, regulations, legislation, and policy directives. OCCIG also advises the IG on
investigative procedures and techniques, as well as on legal implications and conclusions to be
drawn from audit and investigative material. Finally, OCCIG administers the Civil Monetary
Penalty program.
                              Office of Resource Management
ORM supports OIG by providing information resource management and systems security. ORM
also coordinates OIG’s budget, procurement, telecommunications, facilities, and human
resources. In addition, ORM is the focal point for OIG’s strategic planning function and the
development and implementation of performance measures required by the Government
Performance and Results Act of 1993.
